                                                                                                  I1
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

            ~
Case ~urnber:             u~/v/~~QYV                                                        Page 1,,ofI




         A case was developed based on a sub sampling of ledger entries corresponding to the
         disbursement of travel funds awarded in a grant.1 The sampling showed that funds retumkd
    I
         from travelers to the grantee could not be specifically found in the final ledger. The annual and
         final reports filed by the grantee describe such situations, and a subsequent grant2provides for
         the appropriate use of such carryover funds. Issues of distribution of travel funds to apparent
         Federal employees were resolved by documentation that showed that none of the recipients were
         actual Federal employees. The grantee agreed to include a copy of the two-page FL26 with the
         subsequent award letters, and modified the application form for the travel grants to emphasize
         the requirements of FL 26.

         An issue of support of a grantee employee3through participant support costs to attend a
         conference to present the results of her independent research was resolved by return of those
         funds10 the grant. No issues remain unresolved.
                                                                                                       I

         Accordingly, this case is closed.




         ' Redacted.
            Redacted.
            Redacted.



NSF OIG Form 2 (1 1/02)
